                           Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices                                        23731

  Dated: April 18, 2003.                     Developing the Compliance Program           to the industry and not to represent
Elizabeth M. Duke,                           Guidance for Pharmaceutical                 binding standards for pharmaceutical
Administrator.
                              Manufacturers                               manufacturers.
[FR Doc. 03–10934 Filed 5–2–03; 8:45 am] 
      On June 11, 2001, the OIG published      Office of Inspector General’s
BILLING CODE 4165–15–P                       a solicitation notice seeking information   Compliance Program Guidance for
                                             and recommendations for developing          Pharmaceutical Manufacturers
                                             compliance program guidance for the
DEPARTMENT OF HEALTH AND                                                                 I. Introduction
                                             pharmaceutical industry (66 FR 31246).
HUMAN SERVICES                               In response to that solicitation notice,       The Office of Inspector General (OIG)
                                             the OIG received eight comments from        of the Department of Health and Human
Office of Inspector General                                                              Services is continuing in its efforts to
                                             various outside sources. We carefully
OIG Compliance Program Guidance for          considered those comments, as well as       promote voluntary compliance
Pharmaceutical Manufacturers                 previous OIG publications, such as          programs for the health care industry.
                                             other compliance program guidances          This compliance guidance is intended
AGENCY: Office of Inspector General          and Special Fraud Alerts. In addition,      to assist companies that develop,
(OIG), HHS.                                  we have taken into account past and         manufacture, market, and sell
ACTION: Notice                               ongoing fraud investigations conducted      pharmaceutical drugs or biological
                                             by the OIG’s Office of Investigations and   products (pharmaceutical
SUMMARY:    This Federal Register notice     the Department of Justice, and have         manufacturers) in developing and
sets forth the recently issued               consulted with the Centers for Medicare     implementing internal controls and
Compliance Program Guidance for              and Medicaid Services (CMS) (formerly       procedures that promote adherence to
Pharmaceutical Manufacturers                 known as the Health Care Financing          applicable statutes, regulations, and
developed by the Office of Inspector         Administration). In an effort to ensure     requirements of the federal health care
General (OIG). Through this notice, the      that all parties had a reasonable           programs1 and in evaluating and, as
OIG is setting forth its general views on    opportunity to provide input into a final   necessary, refining existing compliance
the value and fundamental principles of      product, draft compliance program           programs.
compliance programs for                      guidance for the pharmaceutical                This guidance provides the OIG’s
pharmaceutical manufacturers and the         industry was published in the Federal       views on the fundamental elements of
specific elements that pharmaceutical        Register on October 3, 2002 (67 FR          pharmaceutical manufacturer
manufacturers should consider when           62057) for further comments and             compliance programs and principles
developing and implementing an               recommendations.                            that each pharmaceutical manufacturer
effective compliance program.                                                            should consider when creating and
                                             Elements for an Effective Compliance        implementing an effective compliance
FOR FURTHER INFORMATION CONTACT:             Program                                     program. This guide is not a compliance
Mary E. Riordan or Nicole C. Hall,              This compliance program guidance         program. Rather, it is a set of guidelines
Office of Counsel to the Inspector           for pharmaceutical manufacturers            that pharmaceutical manufacturers
General, (202) 619–2078.                     contains seven elements that have been      should consider when developing and
SUPPLEMENTARY INFORMATION:                   widely recognized as fundamental to an      implementing a compliance program or
Background                                   effective compliance program:               evaluating an existing one. For those
                                                • Implementing written policies and      manufacturers with an existing
   Compliance program guidance is a          procedures;                                 compliance program, this guidance may
major initiative of the OIG in its effort       • Designating a compliance officer       serve as a benchmark or comparison
to engage the health care community in       and compliance committee;                   against which to measure ongoing
preventing and reducing fraud and               • Conducting effective training and      efforts.
abuse in federal health care programs.       education;                                     A pharmaceutical manufacturer’s
The purpose of the compliance program           • Developing effective lines of          implementation of an effective
guidance is to encourage the use of          communication;                              compliance program may require a
internal controls to efficiently monitor        • Conducting internal monitoring and     significant commitment of time and
adherence to applicable statutes,            auditing;                                   resources by various segments of the
regulations and program requirements.           • Enforcing standards through well-      organization. In order for a compliance
In the last several years, the OIG has       publicized disciplinary guidelines; and     program to be effective, it must have the
developed and issued compliance                 • Responding promptly to detected        support and commitment of senior
program guidance directed at the             problems and undertaking corrective         management and the company’s
following segments of the health care        action.                                     governing body. In turn, the corporate
industry: the hospital industry; home           These elements are included in           leadership should strive to foster a
health agencies; clinical laboratories;      previous guidances issued by the OIG.       culture that promotes the prevention,
third-party medical billing companies;       As with previously issued guidances,        detection, and resolution of instances of
the durable medical equipment,               this compliance program guidance            problems. Although an effective
prosthetics, orthotics and supply            represents the OIG’s suggestions on how     compliance program may require a
industry; Medicare+Choice                    pharmaceutical manufacturers can            reallocation of existing resources, the
organizations offering coordinated care      establish internal controls to ensure       long-term benefits of establishing a
plans; hospices; nursing facilities;         adherence to applicable rules and           compliance program significantly
individual and small group physician         program requirements. The contents of       outweigh the initial costs.
practices; and ambulance suppliers.          this guidance should not be viewed as          In a continuing effort to collaborate
   Copies of these compliance program        mandatory or as an exclusive discussion     closely with the pharmaceutical
guidances can be found on the OIG Web        of the advisable elements of a              industry, the OIG published a notice in
site at http://oig.hhs.gov/fraud/            compliance program. The document is
complianceguidance.html.                     intended to present voluntary guidance       1 (Endnotes   appear at end of document)
23732                     Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices

the Federal Register soliciting                 • An increased likelihood of               establish payment; (2) kickbacks and
comments and recommendations on              preventing, or at least identifying, and      other illegal remuneration; and (3)
what should be included in this              correcting unlawful and unethical             compliance with laws regulating drug
compliance program guidance.2                behavior at an early stage;                   samples. The risk areas are discussed in
Following our review of comments                • A mechanism to encourage                 greater detail in section II.B.2. below.
received in response to the solicitation     employees to report potential problems        The compliance measures adopted by a
notice, we published draft compliance        and allow for appropriate internal            pharmaceutical manufacturer should be
guidance in the Federal Register in          inquiry and corrective action; and            tailored to fit the unique environment of
order to solicit further comments and           • Through early detection and              the company (including its
recommendations.3 In addition to             reporting, minimizing any financial loss      organizational structure, operations and
considering the comments received in         to the government and any                     resources, as well as prior enforcement
response to that solicitation notice and     corresponding financial loss to the           experience). In short, the OIG
the draft compliance guidance, in            company.                                      recommends that each pharmaceutical
finalizing this guidance we reviewed            The OIG recognizes that the                manufacturer should adapt the
previous OIG publications, including         implementation of a compliance                objectives and principles underlying the
OIG advisory opinions, safe harbor           program may not entirely eliminate            measures outlined in this guidance to its
regulations (including the preambles)        improper conduct from the operations          own particular circumstances.5
relating to the federal anti-kickback        of a pharmaceutical manufacturer.
                                             However, a good faith effort by the           II. Compliance Program Elements
statute,4 Special Fraud Alerts, as well as
reports issued by the OIG’s Office of        company to comply with applicable             A. The Basic Compliance Elements
Audit Services and Office of Evaluation      statutes and regulations as well as
                                             federal health care program                      The OIG believes that every effective
and Inspections relevant to the                                                            compliance program must begin with a
pharmaceutical industry. (These              requirements, demonstrated by an
                                             effective compliance program,                 formal commitment by the
materials are available on the OIG Web                                                     pharmaceutical manufacturer’s board of
                                             significantly reduces the risk of
page at http://oig.hhs.gov.) In addition,                                                  directors or other governing body.
                                             unlawful conduct and any penalties that
we relied on the experience gained from                                                    Evidence of that commitment should
                                             result from such behavior.
investigations of pharmaceutical                                                           include the allocation of adequate
manufacturers conducted by OIG’s             B. Application of Compliance Program          resources, a timetable for the
Office of Investigations, the Department     Guidance                                      implementation of the compliance
of Justice, and the state Medicaid Fraud        Given the wide diversity within the        measures, and the identification of an
Control Units. We also held meetings         pharmaceutical industry, there is no          individual to serve as a compliance
with four groups of industry                 single ‘‘best’’ pharmaceutical                officer to ensure that each of the
stakeholders—Pharmaceutical Research         manufacturer compliance program. The          recommended and adopted elements is
and Manufacturers of America (PhRMA)         OIG recognizes the complexities of this       addressed. Once a commitment has
and pharmaceutical manufacturer              industry and the differences among            been undertaken, a compliance officer
representatives; health plan and health      industry members. Some                        should immediately be chosen to
plan association representatives;            pharmaceutical manufacturers are small        oversee the implementation of the
representatives of pharmacy benefit          and may have limited resources to             compliance program.
managers (PBMs) and representatives of       devote to compliance measures.                   The elements listed below provide a
the American Medical Association             Conversely, other companies are well-         comprehensive and firm foundation
(AMA) and its member organizations.          established, large multi-national             upon which an effective compliance
A. Benefits of a Compliance Program          corporations with a widely dispersed          program may be built. Further, they are
                                             work force. Some companies may have           likely to foster the development of a
   The OIG believes a comprehensive          well-developed compliance programs            corporate culture of compliance. The
compliance program provides a                already in place; others only now may         OIG recognizes that full implementation
mechanism that addresses the public          be initiating such efforts. The OIG also      of all elements may not be immediately
and private sectors’ mutual goals of         recognizes that pharmaceutical                feasible for all pharmaceutical
reducing fraud and abuse; enhancing          manufacturers are subject to extensive        manufacturers. However, as a first step,
health care provider operational             regulatory requirements in addition to        a good faith and meaningful
functions; improving the quality of          fraud and abuse-related issues and that       commitment on the part of the
health care services; and reducing the       many pharmaceutical manufacturers             company’s management will
cost of health care. Attaining these goals   have addressed these obligations              substantially contribute to the program’s
provides positive results to the             through compliance programs.                  successful implementation. As the
pharmaceutical manufacturer, the             Accordingly, the OIG strongly                 compliance program is implemented,
government, and individual citizens          encourages pharmaceutical                     that commitment should filter down
alike. In addition to fulfilling its legal   manufactures to develop and implement         through management to every employee
duty to avoid submitting false or            or refine (as necessary) compliance           and contractor of the pharmaceutical
inaccurate pricing or rebate information     elements that uniquely address the areas      manufacturer, as applicable for the
to any federal health care program or        of potential problems, common concern,        particular individual.
engaging in illegal marketing activities,    or high risk that apply to their own             At a minimum, a comprehensive
a pharmaceutical manufacturer may            companies (or, as applicable, to the U.S.     compliance program should include the
gain important additional benefits by        operations of their companies).               following elements:
voluntarily implementing a compliance           For example, although they are not            (1) The development and distribution
program. The benefits may include:           exhaustive of all potential risk areas, the   of written standards of conduct, as well
   • A concrete demonstration to             OIG has identified three major potential      as written policies, procedures and
employees and the community at large         risk areas for pharmaceutical                 protocols that verbalize the company’s
of the company’s commitment to honest        manufacturers: (1) Integrity of data used     commitment to compliance (e.g., by
and responsible corporate conduct;           by state and federal governments to           including adherence to the compliance
                          Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices                               23733

program as an element in evaluating          At a minimum, the policies and              manufacturers. Importantly, the
management and employees) and                procedures should be provided to all        identification of a particular practice or
address specific areas of potential fraud    employees who are affected by these         activity in this section is not intended
and abuse, such as the reporting of          policies, and to any agents or              to imply that the practice or activity is
pricing and rebate information to the        contractors who may furnish services        necessarily illegal in all circumstances
federal health care programs, and sales      that impact federal health care programs    or that it may not have a valid or lawful
and marketing practices;                     (e.g., contractors involved in the co­      purpose underlying it.
   (2) The designation of a compliance       promotion of a manufacturer’s                  This section addresses the following
officer and other appropriate bodies         products).                                  areas of significant concern for
(e.g., a corporate compliance committee)                                                 pharmaceutical manufacturers: (1)
charged with the responsibility for          1. Code of Conduct                          Integrity of data used by state and
developing, operating, and monitoring           Although a clear statement of detailed   federal governments to establish
the compliance program, and with             and substantive policies and procedures     payment amounts; (2) kickbacks and
authority to report directly to the board    is at the core of a compliance program,     other illegal remuneration; and (3)
of directors and/or the president or         the OIG recommends that                     compliance with laws regulating drug
CEO;                                         pharmaceutical manufacturers also           samples.
   (3) The development and                   develop a general corporate statement of       This guidance does not create any
implementation of regular, effective         ethical and compliance principles that      new law or legal obligations, and the
education and training programs for all      will guide the company’s operations.        discussions that follow are not intended
affected employees;                          One common expression of this               to present detailed or comprehensive
   (4) The creation and maintenance of       statement of principles is the code of      summaries of lawful and unlawful
an effective line of communication           conduct. The code should function in        activity. Rather, these discussions
between the compliance officer and all       the same fashion as a constitution, i.e.,   should be used as a starting point for a
employees, including a process (such as      as a document that details the              manufacturer’s legal review of its
a hotline or other reporting system) to      fundamental principles, values, and         particular practices and for
receive complaints or questions, and the     framework for action within an              development of policies and procedures
adoption of procedures to protect the        organization. The code of conduct for a     to reduce or eliminate potential risk.
anonymity of complainants and to             pharmaceutical manufacturer should             a. Integrity of Data Used To Establish
protect whistleblowers from retaliation;     articulate the company’s expectations of    or Determine Government
   (5) The use of audits and/or other risk   commitment to compliance by                 Reimbursement. Many federal and state
evaluation techniques to monitor             management, employees, and agents,          health care programs establish or
compliance, identify problem areas, and      and should summarize the broad ethical      ultimately determine reimbursement
assist in the reduction of identified        and legal principles under which the        rates for pharmaceuticals, either
problems;                                    company must operate. Unlike the more       prospectively or retrospectively, using
   (6) The development of policies and       detailed policies and procedures, the       price and sales data directly or
procedures addressing the non-               code of conduct should be brief, easily     indirectly furnished by pharmaceutical
employment or retention of individuals       readable, and cover general principles      manufacturers. The government sets
or entities excluded from participation      applicable to all employees.                reimbursement with the expectation
in federal health care programs, and the        As appropriate, the OIG strongly         that the data provided are complete and
enforcement of appropriate disciplinary      encourages the participation and            accurate. The knowing submission of
action against employees or contractors      involvement of the pharmaceutical           false, fraudulent, or misleading
who have violated company policies           manufacturer’s board of directors, CEO,     information is actionable. A
and procedures and/or applicable             president, members of senior                pharmaceutical manufacturer may be
federal health care program                  management, and other personnel from        liable under the False Claims Act7 if
requirements; and                            various levels of the organizational        government reimbursement (including,
   (7) The development of policies and       structure in the development of all         but not limited to, reimbursement by
procedures for the investigation of          aspects of the compliance program,          Medicare and Medicaid) for the
identified instances of noncompliance        especially the code of conduct.             manufacturer’s product depends, in
or misconduct. These should include          Management and employee involvement         whole or in part, on information
directions regarding the prompt and          in this process communicates a strong       generated or reported by the
proper response to detected offenses,        and explicit commitment by                  manufacturer, directly or indirectly, and
such as the initiation of appropriate        management to foster compliance with        the manufacturer has knowingly (as
corrective action and preventive             applicable federal health care program      defined in the False Claims Act) failed
measures and processes to report the         requirements. It also communicates the      to generate or report such information
offense to relevant authorities in           need for all employees to comply with       completely and accurately.
appropriate circumstances.                   the organization’s code of conduct and      Manufacturers may also be liable for
                                             policies and procedures.                    civil money penalties under various
B. Written Policies and Procedures                                                       laws, rules and regulations. Moreover,
  In developing a compliance program,        2. Specific Risk Areas                      in some circumstances, inaccurate or
every pharmaceutical manufacturer               This section is intended to help         incomplete reporting may be probative
should develop and distribute written        prudent pharmaceutical manufacturers        of liability under the federal anti-
compliance standards, procedures, and        identify areas of their operations that     kickback statute.
practices that guide the company and         present potential risk of liability under      Where appropriate, manufacturers’
the conduct of its employees in day-to-      several key federal fraud and abuse         reported prices should accurately take
day operations. These policies and           statutes and regulations.6 This section     into account price reductions, cash
procedures should be developed under         focuses on areas that are currently of      discounts, free goods contingent on a
the direction and supervision of the         concern to the enforcement community        purchase agreement, rebates, up-front
compliance officer, the compliance           and is not intended to address all          payments, coupons, goods in kind, free
committee, and operational managers.         potential risk areas for pharmaceutical     or reduced-price services, grants, or
23734                      Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices

other price concessions or similar            arranging for or recommending the             arrangement or practice have the
benefits offered to some or all               purchase, lease, or ordering of any item      potential to be a disguised discount to
purchasers. Any discount, price               or service reimbursable in whole or part      circumvent the Medicaid Rebate
concession, or similar benefit offered on     by a federal health care program. The         Program Best Price calculation?
purchases of multiple products should         statute extends equally to the                   • Does the arrangement or practice
be fairly apportioned among the               solicitation or acceptance of                 have a potential to increase the risk of
products (and could potentially raise         remuneration for referrals. Liability         overutilization or inappropriate
anti-kickback issues). Underlying             under the anti-kickback statute is            utilization?
assumptions used in connection with           determined separately for each party             • Does the arrangement or practice
reported prices should be reasoned,           involved. In addition to criminal             raise patient safety or quality of care
consistent, and appropriately                 penalties, violators may be subject to        concerns?
documented, and pharmaceutical                civil monetary sanctions and exclusion           Manufacturers that have identified
manufacturers should retain all relevant      from the federal health care programs.        problematic arrangements or practices
records reflecting reported prices and        Under certain circumstances, a violation      can take a number of steps to reduce or
efforts to comply with federal health         of the anti-kickback statute may give         eliminate the risk of an anti-kickback
care program requirements.                    rise to liability under the False Claims      violation. Detailed guidance relating to
   Given the importance of the Medicaid       Act.                                          a number of specific practices is
Rebate Program, as well as other                 Although liability under the anti-         available from several sources. Most
programs that rely on Medicaid Rebate         kickback statute ultimately turns on a        importantly, the anti-kickback statute
Program benchmarks (such as the 340B          party’s intent, it is possible to identify    and the corresponding regulations
Program 8), manufacturers should pay          arrangements or practices that may            establish a number of ‘‘safe harbors’’ for
particular attention to ensuring that they    present a significant potential for abuse.    common business arrangements,
are calculating Average Manufacturer          Initially, a manufacturer should identify     including personal services and
Price and Best Price accurately and that      any remunerative relationship between         management contracts, 42 CFR
they are paying appropriate rebate            itself (or its representatives) and persons   1001.952(d), warranties, 42 CFR
amounts for their drugs.9                     or entities in a position to generate         1001.952(g), discounts, 42 CFR
   In sum, pharmaceutical                     federal health care business for the          1001.952(h), employment, 42 CFR
manufacturers are responsible for             manufacturer directly or indirectly.          1001.952(i), GPOs, 42 CFR 1001.952(j),
ensuring the integrity of data they           Persons or entities in a position to          and certain managed care and risk
generate that is used for government          generate federal health care business         sharing arrangements, 42 CFR
reimbursement purposes.                       include, for example, purchasers,             1001.952(m), (t), and (u). Safe harbor
   b. Kickbacks and Other Illegal             benefit managers, formulary committee         protection requires strict compliance
Remuneration—A. General                       members, group purchasing                     with all applicable conditions set out in
Considerations. Pharmaceutical                organizations (GPOs), physicians and          the relevant safe harbor. Although
manufacturers, as well as their               certain allied health care professionals,     compliance with a safe harbor is
employees and agents, should be aware         and pharmacists. The next step is to          voluntary and failure to comply with a
of the federal anti-kickback statute and      determine whether any one purpose of          safe harbor does not mean an
the constraints it places on the              the remuneration may be to induce or          arrangement is illegal, many
marketing and promotion of products           reward the referral or recommendation         arrangements can be structured to fit in
reimbursable by the federal health care       of business payable in whole or in part       safe harbors, and we recommend that
programs, including, but not limited to,      by a Federal health care program.             pharmaceutical manufacturers structure
Medicare and Medicaid. In the health          Importantly, a lawful purpose will not        arrangements to fit in a safe harbor
care sector, many common business             legitimize a payment that also has an         whenever possible. Other available
activities, including, for example, sales,    unlawful purpose.                             guidance includes special fraud alerts
marketing, discounting, and purchaser            Although any arrangement satisfying        and advisory bulletins issued by the
relations, potentially implicate the anti-    both tests requires careful scrutiny from     OIG identifying and discussing
kickback statute. Pharmaceutical              a manufacturer, the courts have               particular practices or issues of concern
manufacturers and their employees and         identified several potentially                and OIG advisory opinions issued to
agents should be aware that the anti-         aggravating considerations that can be        specific parties about their particular
kickback statute prohibits in the health      useful in identifying arrangements at         business arrangements. Parties may
care industry some practices that are         greatest risk of prosecution. In              apply for an OIG advisory opinion using
common in other business sectors. In          particular, manufacturers should ask the      the procedures set out at 42 CFR part
short, practices that may be common or        following questions, among others,            1008. The safe harbor regulations (and
longstanding in other businesses are not      about any problematic arrangements or         accompanying Federal Register
necessarily acceptable or lawful when         practices they identify:                      preambles), fraud alerts and bulletins,
soliciting federal health care program           • Does the arrangement or practice         advisory opinions (and instructions for
business.                                     have a potential to interfere with, or        obtaining them), and other guidance are
   The anti-kickback statute is a criminal    skew, clinical decision-making? Does it       available on the OIG web site at
prohibition against payments (in any          have a potential to undermine the             http://oig.hhs.gov.
form, whether the payments are direct         clinical integrity of a formulary process?       B. Key Areas of Potential Risk. The
or indirect) made purposefully to             If the arrangement or practice involves       following discussion highlights several
induce or reward the referral or              providing information to decision-            known areas of potential risk. The
generation of federal health care             makers, prescribers, or patients, is the      propriety of any particular arrangement
business. The anti-kickback statute           information complete, accurate, and not       can only be determined after a detailed
addresses not only the offer or payment       misleading?                                   examination of the attendant facts and
of anything of value for patient referrals,      • Does the arrangement or practice         circumstances. The identification of a
but also the offer or payment of              have a potential to increase costs to the     given practice or activity as ‘‘suspect’’ or
anything of value in return for               federal health care programs,                 as an area of ‘‘risk’’ does not mean it is
purchasing, leasing, ordering, or             beneficiaries, or enrollees? Does the         necessarily illegal or unlawful, or that it
                           Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices                                23735

cannot be properly structured to fit in a     health care. Thus, the anti-kickback         eliminates normal financial risks), the
safe harbor. Nor does it mean that the        statute contains an exception for            arrangement would raise kickback
practice or activity is not beneficial from   discounts offered to customers that          concerns. For example, the anti-
a clinical, cost, or other perspective.       submit claims to the federal health care     kickback statute would be implicated if
Rather, the areas identified below are        programs, if the discounts are properly      a manufacturer were to couple a
those areas of activity that have a           disclosed and accurately reported. See       reimbursement support service with a
potential for abuse based on historical       42 U.S.C. 1320a–7b(b)(3)(A); 42 CFR          promise that a purchaser will pay for
law enforcement experience and that           1001.952(h). However, to qualify for the     ordered products only if the purchaser
should receive close scrutiny from            exception, the discount must be in the       is reimbursed by a federal health care
manufacturers. The discussion                 form of a reduction in the price of the      program.
highlights potential risks under the anti-    good or service based on an arms-length         Educational Grants. Pharmaceutical
kickback statute arising from                 transaction. In other words, the             manufacturers sometimes provide grant
pharmaceutical manufacturers’                 exception covers only reductions in the      funding for a wide range of educational
relationships with three groups:              product’s price. Moreover, the               activities. While educational funding
purchasers (including those using             regulations provide that the discount        can provide valuable information to the
formularies) and their agents; persons        must be given at the time of sale or, in     medical and health care industry,
and entities in a position to make or         certain cases, set at the time of sale,      manufacturer grants to purchasers,
influence referrals (including physicians     even if finally determined subsequent to     GPOs, PBMs and similar entities raise
and other health care professionals); and     the time of sale (i.e., a rebate).           concerns under the anti-kickback
sales agents.                                    Manufacturers offering discounts          statute. Funding that is conditioned, in
   (1) Relationships with Purchasers and      should thoroughly familiarize                whole or in part, on the purchase of
their Agents—(a) Discounts and Other          themselves, and have their sales and         product implicates the statute, even if
Remuneration to Purchasers.                   marketing personnel familiarize              the educational or research purpose is
Pharmaceutical manufacturers offer            themselves, with the discount safe           legitimate. Furthermore, to the extent
purchasers a variety of price                 harbor at 42 CFR 1001.952(h) (and, if        the manufacturer has any influence over
concessions and other remuneration to         relevant, the safe harbors for price         the substance of an educational program
induce the purchase of their products.        reductions in the managed care context,      or the presenter, there is a risk that the
Purchasers include direct purchasers          42 CFR 1001.952(m), (t), and (u)). In        educational program may be used for
(e.g., hospitals, nursing homes,              particular, manufacturers should pay         inappropriate marketing purposes.
pharmacies, some physicians), as well         attention to the discount safe harbor           To reduce the risks that a grant
as indirect purchasers (e.g., health          requirements applicable to ‘‘sellers’’ and   program is used improperly to induce or
plans). Inducements offered to                ‘‘offerors’’ of discounts. Under the safe    reward product purchases or to market
purchasers potentially implicate the          harbor, sellers and offerors have specific   product inappropriately, manufacturers
anti-kickback statute if the purchased        obligations that include (i) informing a     should separate their grant making
products are reimbursable to the              customer of any discount and of the          functions from their sales and marketing
purchasers, in whole or in part, directly     customer’s reporting obligations with        functions. Effective separation of these
or indirectly, by any of the federal          respect to that discount, and (ii)           functions will help insure that grant
health care programs. Any remuneration        refraining from any action that would        funding is not inappropriately
from a manufacturer provided to a             impede a customer’s ability to comply        influenced by sales or marketing
purchaser that is expressly or impliedly      with the safe harbor. To fulfill the safe    motivations and that the educational
related to a sale potentially implicates      harbor requirements, manufacturers will      purposes of the grant are legitimate.
the anti-kickback statute and should be       need to know how their customers             Manufacturers should establish
carefully reviewed.                           submit claims to the federal health care     objective criteria for making grants that
   Discounting arrangements are               programs (e.g., whether the customer is      do not take into account the volume or
prevalent in the pharmaceutical               a managed care, cost-based, or charge-       value of purchases made by, or
industry and deserve careful scrutiny         based biller). Compliance with the safe      anticipated from, the grant recipient and
particularly because of their potential to    harbor is determined separately for each     that serve to ensure that the funded
implicate the Best Price requirements of      party.                                       activities are bona fide. The
the Medicaid Rebate Program. Because             Product Support Services.                 manufacturer should have no control
the Medicaid Rebate Program in many           Pharmaceutical manufacturers                 over the speaker or content of the
instances requires that states receive        sometimes offer purchasers certain           educational presentation. Compliance
rebates based on the Best Price offered       support services in connection with the      with such procedures should be
by a pharmaceutical manufacturer to           sale of their products. These services       documented and regularly monitored.
other purchasers, manufacturers have a        may include billing assistance tailored         Research Funding. Manufacturers
strong financial incentive to hide de         to the purchased products,                   often contract with purchasers of their
facto pricing concessions to other            reimbursement consultation, and other        products to conduct research activities
purchasers to avoid passing on the same       programs specifically tied to support of     on behalf of the manufacturer on a fee-
discount to the states. Because of the        the purchased product. Standing alone,       for-service basis. These contracts should
potential direct and substantial effect of    services that have no substantial            be structured to fit in the personal
such practices on federal health care         independent value to the purchaser may       services safe harbor whenever possible.
program expenditures and the interest         not implicate the anti-kickback statute.     Payments for research services should
of some manufacturers in avoiding price       However, if a manufacturer provides a        be fair market value for legitimate,
concessions that would trigger rebates to     service having no independent value          reasonable, and necessary services. Post-
the states, any remuneration from a           (such as limited reimbursement support       marketing research activities should be
manufacturer to a purchaser, however          services in connection with its own          especially scrutinized to ensure that
characterized, should be carefully            products) in tandem with another             they are legitimate and not simply a
scrutinized.                                  service or program that confers a benefit    pretext to generate prescriptions of a
   Discounts. Public policy favors open       on a referring provider (such as a           drug. Prudent manufacturers will
and legitimate price competition in           reimbursement guarantee that                 develop contracting procedures that
23736                      Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices

clearly separate the awarding of              health care professionals—determines         to PBMs that are based on, or otherwise
research contracts from marketing.            the drugs that are covered and, if tiered    related to, the PBM’s customers’
Research contracts that originate             benefit levels are utilized, to which tier   purchases potentially implicate the anti-
through the sales or marketing                the drugs are assigned. So long as the       kickback statute. Protection is available
functions—or that are offered to              determination of clinical efficacy and       by structuring such arrangements to fit
purchasers in connection with sales           appropriateness of formulary drugs by        in the GPO safe harbor at 42 CFR
contacts—are particularly suspect.            the formulary committee precedes, and        1001.952(j). That safe harbor requires,
   Pharmaceutical manufacturers               is paramount to, the consideration of        among other things, that the payments
sometimes provide funding to their            costs, the development of a formulary is     be authorized in advance by the PBM’s
purchasers for use in the purchasers’         unlikely to raise significant issues under   customer and that all amounts actually
own research. In many cases, the              the anti-kickback statute.                   paid to the PBM on account of the
research provides valuable scientific            Formulary support activities,             customer’s purchases be disclosed in
and clinical information, improves            including related communications with        writing at least annually to the
clinical care, leads to promising new         patients and physicians to encourage         customer. In addition, arrangements
treatments, promotes better delivery of       compliance, are an integral and              with PBMs that assume risk may raise
health care, or otherwise benefits            essential component of successful            different issues; depending on the
patients. However, as with educational        pharmacy benefits management. Proper         circumstances, protection for such
grants, if linked directly or indirectly to   utilization of a formulary maximizes the     arrangements may be available under
the purchase of product, research grants      cost-effectiveness of the benefit and        the managed care safe harbors at 42 CFR
can be misused to induce the purchase         assures the quality and appropriateness      1001.952(m), (t) and (u).
of business without triggering Medicaid       of the drug therapy. When provided by           • Formulary placement payments.
Best Price obligations. To reduce risk,       a PBM, these services are part of the        Lump sum payments for inclusion in a
manufacturers should insulate research        PBM’s formulary and benefit                  formulary or for exclusive or restricted
grant making from sales and marketing         management function—a service                formulary status are problematic and
influences.                                   provided to its customers—and                should be carefully scrutinized.
   Other remuneration to purchasers. As       markedly different from its purchasing
                                                                                              In addition, some manufacturers
already noted, any remuneration from a        agent/price negotiator role. Most
                                                                                           provide funding for purchasers’ or
manufacturer provided to a purchaser          importantly, the benefits of these
that is expressly or impliedly related to                                                  PBMs’ formulary support activities,
                                              formulary support activities inure
a sale potentially implicates the anti-                                                    especially communications with
                                              directly to the PBM and its customers
kickback statute and should be carefully                                                   physicians and patients. While the
                                              through lower costs.
reviewed. Examples of remuneration in            To date, Medicare and Medicaid            communications may indirectly benefit
connection with a sale include, but are       involvement with outpatient drug             the manufacturer, the primary economic
not limited to, ‘‘prebates’’ and ‘‘upfront    formularies has been limited primarily       beneficiary is typically the formulary
payments,’’ other free or reduced-price       to Medicaid and Medicare managed care        sponsor. In other words, the
goods or services, and payments to            plans. In light of the safe harbors under    manufacturer’s dollars appear to replace
cover the costs of ‘‘converting’’ from a      the anti-kickback statute for those          dollars that would or should be spent by
competitor’s product. Selective offers of     managed care arrangements, the               the sponsor. To the extent the
remuneration (i.e., offers made to some       financial arrangements between health        manufacturers’ payments are linked to
but not all purchasers) may increase          plans and pharmaceutical                     drug purchases directly or indirectly,
potential risk if the selection criteria      manufacturers or, where the pharmacy         they potentially implicate the anti-
relate directly or indirectly to the          benefit is managed by a PBM, the             kickback statute. Among the questions
volume or value of business generated.        arrangements among the three parties,        that should be examined by a
In addition, manufacturers may contract       have received relatively little scrutiny.    manufacturer in connection with these
with purchasers to provide services to        However, as federal program                  activities are: Is the funding tied to
the manufacturer, such as data                expenditures for, and coverage of,           specific drugs or categories? If so, are
collection services. These contracts          outpatient pharmaceuticals increase,         the categories especially competitive? Is
should be structured whenever possible        scrutiny under the anti-kickback statute     the formulary sponsor funding similar
to fit in the personal services safe          has also increased. Several practices        activities for other drug categories? Has
harbor; in all cases, the remuneration        appear to have the potential for abuse.      funding of PBM activities increased as
should be fair market value for                  • Relationships with formulary            rebates are increasingly passed back to
legitimate, reasonable, and necessary         committee members. Given the                 PBM customers?
services.                                     importance of formulary placement for           (c) Average Wholesale Price. The
   (b) Formularies and Formulary              a manufacturer’s products,                   ‘‘spread’’ is the difference between the
Support Activities. To help control drug      unscrupulous manufacturers and sales         amount a customer pays for a product
costs while maintaining clinical              representatives may attempt to               and the amount the customer receives
appropriateness and quality of patient        influence committee deliberations. Any       upon resale of the product to the patient
care, many purchasers of                      remuneration from a manufacturer or its      or other payer. In many situations under
pharmaceutical products, including            agents directly or indirectly to person in   the federal programs, pharmaceutical
indirect purchasers such as health            a position to influence formulary            manufacturers control not only the
plans, have developed drug formularies        decisions related to the manufacturer’s      amount at which they sell a product to
to promote rational, clinically               products are suspect and should be           their customers, but also the amount
appropriate, safe, and cost-effective drug    carefully scrutinized. Manufacturers         those customers who purchase the
therapy. Formularies are a well-              should also review their contacts with       product for their own accounts and
established tool for the effective            sponsors of formularies to ensure that       thereafter bill the federal health care
management of drug benefits. The              price negotiations do not influence          programs will be reimbursed. To the
formulary development process—                decisions on clinical safety or efficacy.    extent that a manufacturer controls the
typically overseen by a committee of             • Payments to PBMs. Any rebates or        ‘‘spread,’’ it controls its customer’s
physicians, pharmacists, and other            other payments by drug manufacturers         profit.
                          Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices                                 23737

   Average Wholesale Price (AWP) is the      GPOs or PBMs, arrange for the purchase       squarely in a safe harbor to be
benchmark often used to set                  of) those products. These remunerative       protected. In addition, arrangements
reimbursement for prescription drugs         relationships potentially implicate the      that do not fit in a safe harbor should
under the Medicare Part B program. For       anti-kickback statute. The following         be reviewed in light of the totality of all
covered drugs and biologicals, Medicare      discussion focuses on relationships with     facts and circumstances, bearing in
Part B generally reimburses at ‘‘95          physicians, but the same principles          mind the following factors, among
percent of average wholesale price.’’ 42     would apply when evaluating                  others:
U.S.C. 1395u(o). Similarly many state        relationships with other parties in a           • Nature of the relationship between
Medicaid programs and other payers           position to influence referrals,             the parties. What degree of influence
base reimbursement for drugs and             including, without limitation,               does the physician have, directly or
biologicals on AWP. Generally, AWP or        pharmacists and other health care            indirectly, on the generation of business
pricing information used by commercial       professionals.                               for the manufacturer? Does the
price reporting services to determine           Manufacturers, providers, and             manufacturer have other direct or
AWP is reported by pharmaceutical            suppliers of health care products and        indirect relationships with the
manufacturers.                               services frequently cultivate                physician or members of the physician’s
   If a pharmaceutical manufacturer          relationships with physicians in a           group?
purposefully manipulates the AWP to          position to generate business for them          • Manner in which the remuneration
increase its customers’ profits by           through a variety of practices, including    is determined. Does the remuneration
increasing the amount the federal health     gifts, entertainment, and personal           take into account, directly or indirectly,
care programs reimburse its customers,       services compensation arrangements.          the volume or value of business
the anti-kickback statute is implicated.     These activities have a high potential for   generated (e.g., is the remuneration only
Unlike bona fide discounts, which            fraud and abuse and, historically, have      given to persons who have prescribed or
transfer remuneration from a seller to a     generated a substantial number of anti-      agreed to prescribe the manufacturer’s
buyer, manipulation of the AWP               kickback convictions. There is no            product)? Is the remuneration
transfers remuneration to a seller’s         substantive difference between               conditioned in whole or in part on
immediate customer from a subsequent         remuneration from a pharmaceutical           referrals or other business generated? Is
purchaser (the federal or state              manufacturer or from a durable medical       there any service provided other than
government). Under the anti-kickback         equipment or other supplier—if the           referrals?
statute, offering remuneration to a          remuneration is intended to generate            • Value of the remuneration. Is the
purchaser or referral source is improper     any federal health care business, it         remuneration more than trivial in value,
if one purpose is to induce the purchase     potentially violates the anti-kickback       including all gifts to any individual,
or referral of program business. In other    statute.                                     entity, or group of individuals? 10 Do
words, it is illegal for a manufacturer         Any time a pharmaceutical                 fees for services exceed the fair market
knowingly to establish or                    manufacturer provides anything of            value of any legitimate, reasonable, and
inappropriately maintain a particular        value to a physician who might               necessary services rendered by the
AWP if one purpose is to manipulate          prescribe the manufacturer’s product,        physician to the manufacturer?
the ‘‘spread’’ to induce customers to        the manufacturer should examine                 • Potential federal program impact of
purchase its product.                        whether it is providing a valuable           the remuneration. Does the
   In the light of this risk, we             tangible benefit to the physician with       remuneration have the potential to
recommend that manufacturers review          the intent to induce or reward referrals.    affect costs to any of the federal health
their AWP reporting practices and            For example, if goods or services            care programs or their beneficiaries or to
methodology to confirm that marketing        provided by the manufacturer eliminate       lead to overutilization or inappropriate
considerations do not influence the          an expense that the physician would          utilization?
process. Furthermore, manufacturers          have otherwise incurred (i.e., have             • Potential conflicts of interest.
should review their marketing practices.     independent value to the physician), or      Would acceptance of the remuneration
The conjunction of manipulation of the       if items or services are sold to a           diminish, or appear to diminish, the
AWP to induce customers to purchase a        physician at less than their fair market     objectivity of professional judgment?
product with active marketing of the         value, the arrangement may be                Are there patient safety or quality of
spread is strong evidence of the             problematic if the arrangement is tied       care concerns? If the remuneration
unlawful intent necessary to trigger the     directly or indirectly to the generation     relates to the dissemination of
anti-kickback statute. Active marketing      of federal health care program business      information, is the information
of the spread includes, for example,         for the manufacturer. Moreover, under        complete, accurate, and not misleading?
sales representatives promoting the          the anti-kickback statute, neither a            These concerns are addressed in the
spread as a reason to purchase the           legitimate purpose for an arrangement        PhRMA Code on Interactions with
product or guaranteeing a certain profit     (e.g., physician education), nor a fair      Healthcare Professionals (the ‘‘PhRMA
or spread in exchange for the purchase       market value payment, will necessarily       Code’’), adopted on April 18, 2002,
of a product.                                protect remuneration if there is also an     which provides useful and practical
   (2) Relationships with Physicians and     illegal purpose (i.e., the purposeful        advice for reviewing and structuring
Other Persons and Entities in a Position     inducement of business).                     these relationships. (The PhRMA Code
to Make or Influence Referrals.                 In light of the obvious risks inherent    is available through PhRMA’s Web site
Pharmaceutical manufacturers and their       in these arrangements, whenever              at http://www.phrma.org.) Although
agents may have a variety of                 possible prudent manufacturers and           compliance with the PhRMA Code will
remunerative relationships with persons      their agents or representatives should       not protect a manufacturer as a matter
or entities in a position to refer, order,   structure relationships with physicians      of law under the anti-kickback statute,
or prescribe—or influence the referral,      to fit in an available safe harbor, such     it will substantially reduce the risk of
ordering, or prescribing of—the              as the safe harbors for personal services    fraud and abuse and help demonstrate
manufacturers’ products, even though         and management contracts, 42 CFR             a good faith effort to comply with the
the persons or entities may not              1001.952(d), or employees, 42 CFR            applicable federal health care program
themselves purchase (or in the case of       1001.952(i). An arrangement must fit         requirements.
23738                     Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices

   The following paragraphs discuss in       (iv) the compensation is at fair market      directed by marketers or sales agents;
greater detail several common or             value; and (v) all of the preceding facts    research that is not transmitted to, or
problematic relationships between            are documented prior to payment. In          reviewed by, a manufacturer’s science
manufacturers and physicians,                addition, to further reduce their risk,      component; research that is
including ‘‘switching’’ arrangements,        manufacturers should structure services      unnecessarily duplicative or is not
consulting and advisory payments,            arrangements to comply with a safe           needed by the manufacturer for any
payments for detailing, business             harbor whenever possible.                    purpose other than the generation of
courtesies and other gratuities, and            Payments for detailing. Recently,         business; and post-marketing research
educational and research activities.         some entities have been compensating         used as a pretense to promote product.
   • Switching’’ arrangements. As noted      physicians for time spent listening to       Prudent manufacturers will develop
in the OIG’s 1994 Special Fraud Alert        sales representatives market                 contracting procedures that clearly
(59 FR 65372; December 19, 1994),            pharmaceutical products. In some cases,      separate the awarding of research
product conversion arrangements (also        these payments are characterized as          contracts from marketing or promotion
known as ‘‘switching’’ arrangements)         ‘‘consulting’’ fees and may require          of their products.
are suspect under the anti-kickback          physicians to complete minimal                  In addition, pharmaceutical
statute. Switching arrangements involve      paperwork. Other companies pay               manufacturers also provide other
pharmaceutical manufacturers offering        physicians for time spent accessing web      funding for a wide range of physician
physicians or others cash payments or        sites to view or listen to marketing         educational and research activities.
other benefits each time a patient’s         information or perform ‘‘research.’’ All     Manufacturers should review
prescription is changed to the               of these activities are highly suspect       educational and research grants to
manufacturer’s product from a                under the anti-kickback statute, are         physicians similarly to educational and
competing product. This activity clearly     highly susceptible to fraud and abuse,       research grants to purchasers (described
implicates the statute, and, while such      and should be strongly discouraged.          above). As with grants to purchasers, the
programs may be permissible in certain          Business Courtesies and Other             OIG recognizes that many grant-funded
managed care arrangements,                   Gratuities. Pharmaceutical companies         activities are legitimate and beneficial.
manufacturers should review very             and their employees and agents often         When evaluating educational or
carefully any marketing practices            engage in a number of other                  research grants provided by
utilizing ‘‘switching’’ payments in          arrangements that offer benefits, directly   manufacturers to physicians,
connection with products reimbursable        or indirectly, to physicians or others in    manufacturers should determine if the
by federal health care programs.             a position to make or influence referrals.   funding is based, in any way, expressly
   Consulting and advisory payments.         Examples of remunerative arrangements        or implicitly, on the physician’s referral
Pharmaceutical manufacturers                 between pharmaceutical manufacturers         of the manufacturer’s product. If so, the
frequently engage physicians and other       (or their representatives) and parties in    funding plainly implicates the anti-
health care professionals to furnish         a position to influence referrals include:   kickback statute. In addition, the
personal services as consultants or             • Entertainment, recreation, travel,      manufacturer should determine whether
advisers to the manufacturer. In general,    meals, or other benefits in association      the funding is for bona fide educational
fair market value payments to small          with information or marketing                or research purposes. Absent unusual
numbers of physicians for bona fide          presentations; and                           circumstances, grants or support for
consulting or advisory services are             • Gifts, gratuities, and other business   educational activities sponsored and
unlikely to raise any significant            courtesies.                                  organized by medical professional
concern. Compensating physicians as             As discussed above, these                 organizations raise little risk of fraud or
‘‘consultants’’ when they are expected       arrangements potentially implicate the       abuse, provided that the grant or
to attend meetings or conferences            anti-kickback statute if any one purpose     support is not restricted or conditioned
primarily in a passive capacity is           of the arrangement is to generate            with respect to content or faculty.
suspect.                                     business for the pharmaceutical                 Pharmaceutical manufacturers often
   Also of concern are compensation          company. While the determination of          provide funding to other sponsors of
relationships with physicians for            whether a particular arrangement             continuing medical education (CME)
services connected directly or indirectly    violates the anti-kickback statute           programs. Manufacturers should take
to a manufacturer’s marketing and sales      depends on the specific facts and            steps to ensure that neither they, nor
activities, such as speaking, certain        circumstances, compliance with the           their representatives, are using these
research, or preceptor or ‘‘shadowing’’      PhRMA Code with respect to these             activities to channel improper
services. While these arrangements are       arrangements should substantially            remuneration to physicians or others in
potentially beneficial, they also pose a     reduce a manufacturer’s risk.                a position to generate business for the
risk of fraud and abuse. In particular,         Educational and Research Funding.         manufacturer or to influence or control
the use of health care professionals for     In some cases, manufacturers contract        the content of the program.11 In
marketing purposes—including, for            with physicians to provide research          addition, manufacturers and sponsors of
example, ghost-written papers or             services on a fee-for-service basis. These   educational programs should be
speeches—implicates the anti-kickback        contracts should be structured to fit in     mindful of the relevant rules and
statute. While full disclosure by            the personal services safe harbor            regulations of the Food and Drug
physicians of any potential conflicts of     whenever possible. Payments for              Administration. Codes of conduct
interest and of industry sponsorship or      research services should be fair market      promulgated by the CME industry may
affiliation may reduce the risk of abuse,    value for legitimate, reasonable, and        provide a useful starting point for
disclosure does not eliminate the risk.      necessary services. Research contracts       manufacturers when reviewing their
   At a minimum, manufacturers should        that originate through the sales or          CME arrangements.
periodically review arrangements for         marketing functions—or that are offered         (3) Relationships with Sales Agents.
physicians’ services to ensure that: (i)     to physicians in connection with sales       In large part, a pharmaceutical
The arrangement is set out in writing;       contacts—are particularly suspect.           manufacturer’s commitment to an
(ii) there is a legitimate need for the      Indicia of questionable research include,    effective fraud and abuse compliance
services; (iii) the services are provided;   for example, research initiated or           program can be measured by its
                           Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices                               23739

commitment to training and monitoring            c. Drug Samples. The provision of         officer delegates some of the compliance
its sales force. A pharmaceutical             drug samples is a widespread industry        duties, he or she should, nonetheless,
manufacturer should: (i) Develop a            practice that can benefit patients, but      remain sufficiently involved to fulfill
regular and comprehensive training            can also be an area of potential risk to     the compliance oversight function.
program for its sales force, including        a pharmaceutical manufacturer. The             Designating a compliance officer with
refresher and updated training on a           Prescription Drug Marketing Act of 1987      the appropriate authority is critical to
regular basis, either in person or            (PDMA) governs the distribution of drug      the success of the program, necessitating
through newsletters, memoranda, or the        samples and forbids their sale. 21 U.S.C.    the appointment of a high-level official
like; (ii) familiarize its sales force with   353(c)(1). A drug sample is defined to be    with direct access to the company’s
the minimum PhRMA Code standards              a unit of the drug ‘‘that is not intended    president or CEO, board of directors, all
and other relevant industry standards;        to be sold * * * and is intended to          other senior management, and legal
(iii) institute and implement corrective      promote the sale of the drug.’’ 21 U.S.C.    counsel. The compliance officer should
action and disciplinary policies              353(c)(1). Failure to comply with the        have sufficient funding, resources, and
applicable to sales agents who engage in      requirements of PDMA can result in           staff to perform his or her
improper marketing; (iv) avail itself of      sanctions. In some circumstances, if the     responsibilities fully. The compliance
the advisory opinion process if it has        samples have monetary value to the           officer should be able to effectuate
questions about particular practices          recipient (e.g., a physician) and are used   change within the organization as
used by its sales force; and (v) establish    to treat federal health care program         necessary or appropriate and to exercise
an effective system for tracking,             beneficiaries, the improper use of           independent judgment. Optimal
compiling, and reviewing information          samples may also trigger liability under     placement of the compliance officer
about sales force activities, including, if   other statutes, including the False          within the organization will vary
appropriate, random spot checking.            Claims Act and the anti-kickback statue.     according to the particular situation of
   In addition, manufacturers should             Pharmaceutical manufacturers should       a manufacturer.13
carefully review their compensation           closely follow the PDMA requirements           Coordination and communication
arrangements with sales agents. Sales         (including all documentation                 with other appropriate individuals or
agents, whether employees or                  requirements). In addition,                  business units are the key functions of
independent contractors, are paid to          manufacturers can minimize their risk        the compliance officer with regard to
recommend and arrange for the                 of liability by: (i) Training their sales    planning, implementing or enhancing,
purchase of the items or services they        force to inform sample recipients in a       and monitoring the compliance
offer for sale on behalf of the               meaningful manner that samples may           program. The compliance officer’s
pharmaceutical manufacturer they              not be sold or billed (thus vitiating any    primary responsibilities should include:
represent. Many arrangements can be           monetary value of the sample); (ii)            • Overseeing and monitoring
structured to fit in the employment or        clearly and conspicuously labeling           implementation of the compliance
personal services safe harbor.                individual samples as units that may         program; 14
Arrangements that cannot fit into a safe      not be sold (thus minimizing the ability       • Reporting on a regular basis to the
harbor should be carefully reviewed.          of recipients to advertently or              company’s board of directors, CEO or
Among the factors that should be              inadvertently commingle samples with         president, and compliance committee (if
evaluated are:                                purchased product); and (iii) including      applicable) on compliance matters and
   • The amount of compensation;              on packaging and any documentation           assisting these individuals or groups to
   • The identity of the sales agent          related to the samples (such as shipping     establish methods to reduce the
engaged in the marketing or                   notices or invoices) a clear and             company’s vulnerability to fraud and
promotional activity (e.g., is the agent a    conspicuous notice that the samples are      abuse;
‘‘white coat’’ marketer or otherwise in a                                                    • Periodically revising the
                                              subject to PDMA and may not be sold.
position of exceptional influence);                                                        compliance program, as appropriate, to
                                              Recent government enforcement activity
   • The sales agent’s relationship with      has focused on instances in which drug
                                                                                           respond to changes in the company’s
his or her audience;                                                                       needs and applicable federal health care
                                              samples were provided to physicians
   • The nature of the marketing or                                                        program requirements, identified
                                              who, in turn, sold them to the patient
promotional activity;                                                                      weakness in the compliance program, or
   • The item or service being promoted       or billed them to the federal health care
                                                                                           identified systemic patterns of
or marketed; and                              programs on behalf of the patient.
                                                                                           noncompliance;
   • The composition of the target            C. Designation of a Compliance Officer         • Developing, coordinating, and
audience.                                     and a Compliance Committee                   participating in a multifaceted
   Manufacturers should be aware that a                                                    educational and training program that
compensation arrangement with a sales         1. Compliance Officer
                                                                                           focuses on the elements of the
agent that fits in a safe harbor can still       Every pharmaceutical manufacturer         compliance program, and seeking to
be evidence of a manufacturer’s               should designate a compliance officer to     ensure that all affected employees and
improper intent when evaluating the           serve as the focal point for compliance      management understand and comply
legality of the manufacturer’s                activities.12 This responsibility may be     with pertinent federal and state
relationships with persons in a position      the individual’s sole duty or added to       standards;
to influence business for the                 other management responsibilities,             • Ensuring that independent
manufacturer. For example, if a               depending upon the size and resources        contractors and agents, particularly
manufacturer provides sales employees         of the company and the complexity of         those agents and contractors who are
with extraordinary incentive bonuses          the task. If the individual has additional   involved in sales and marketing
and expense accounts, there may well          management responsibilities, the             activities, are aware of the requirements
be an inference to be drawn that the          pharmaceutical manufacturer should           of the company’s compliance program
manufacturer intentionally motivated          ensure that the individual is able to        with respect to sales and marketing
the sales force to induce sales through       dedicate adequate and substantive time       activities, among other things;
lavish entertainment or other                 and attention to the compliance                • Coordinating personnel issues with
remuneration.                                 functions. Similarly, if the compliance      the company’s Human Resources/
23740                     Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices

Personnel office (or its equivalent) to     company should expect its compliance        applies to pharmaceutical sales and
ensure that the List of Excluded            committee members and compliance            marketing practices and (ii) the
Individuals/Entities 15 has been checked    officer to demonstrate high integrity,      calculation and reporting of pricing
with respect to all employees and           good judgment, assertiveness, and an        information and payment of rebates in
independent contractors;                    approachable demeanor, while eliciting      connection with federal health care
  • Assisting the company’s internal        the respect and trust of company            programs, should be targeted at those
auditors in coordinating internal           employees. These interpersonal skills       employees and contractors whose job
compliance review and monitoring            are as important as the professional        requirements make the information
activities;                                 experience of the compliance officer        relevant. The specific training should be
  • Reviewing and, where appropriate,       and each member of the compliance           tailored to make it as meaningful as
acting in response to reports of            committee.                                  possible for each group of participants.
noncompliance received through the            Once a pharmaceutical manufacturer           Managers and employees of specific
hotline (or other established reporting     chooses the people who will accept the      divisions can assist in identifying
mechanism) or otherwise brought to his      responsibilities vested in members of       specialized areas that require training
or her attention (e.g., as a result of an   the compliance committee, the company       and in carrying out such training.
internal audit or by corporate counsel      needs to train these individuals on the     Additional areas for training may also
who may have been notified of a             policies and procedures of the              be identified through internal audits
potential instance of noncompliance);       compliance program, as well as how to       and monitoring and from a review of
  • Independently investigating and         discharge their duties. The OIG             any past compliance problems of the
acting on matters related to compliance.    recognizes that some pharmaceutical         pharmaceutical manufacturer or
To that end, the compliance officer         manufacturers (e.g., small companies or     similarly situated companies. A
should have the flexibility to design and   those with limited budgets) may not         pharmaceutical manufacturer should
coordinate internal investigations (e.g.,   have the resources or the need to           regularly review its training and, where
responding to reports of problems or        establish a compliance committee.           appropriate, update the training to
suspected violations) and any resulting     However, when potential problems are        reflect issues identified through audits
corrective action (e.g., making necessary   identified at such companies, the OIG       or monitoring and any relevant changes
improvements to policies and practices,     recommends the creation of a ‘‘task         in federal health care program
and taking appropriate disciplinary         force’’ to address the particular issues.   requirements. Training instructors may
action) with various company divisions      The members of the task force may vary      come from outside or inside the
or departments;                             depending upon the area of concern. For     organization, but must be qualified to
  • Participating with the company’s        example, if the compliance officer          present the subject matter involved and
counsel in the appropriate reporting of     identifies issues relating to improper      sufficiently experienced in the issues
any self-discovered violations of federal   inducements to the company’s
                                                                                        presented to adequately field questions
health care program requirements; and       purchasers or prescribers, the OIG
  • Continuing the momentum and, as                                                     and coordinate discussions among those
                                            recommends that a task force be
appropriate, revision or expansion of                                                   being trained. Ideally, training
                                            organized to review the arrangements
the compliance program after the initial                                                instructors should be available for
                                            and interactions with those purchasers
years of implementation.16                                                              follow-up questions after the formal
                                            or prescribers. In essence, the
  The compliance officer must have the                                                  training session has been conducted.
                                            compliance committee is an extension
authority to review all documents and       of the compliance officer and provides         The pharmaceutical manufacturer
other information relevant to               the organization with increased             should train new employees soon after
compliance activities. This review          oversight.                                  they have started working. Training
authority should enable the compliance                                                  programs and materials should be
officer to examine interactions with        D. Conducting Effective Training and        designed to take into account the skills,
government programs to determine            Education                                   experience, and knowledge of the
whether the company is in compliance           The proper education and training of     individual trainees. The compliance
with federal health care program            officers, directors, employees,             officer should document any formal
reporting and rebate requirements and       contractors, and agents, and periodic       training undertaken by the company as
to examine interactions with health care    retraining of personnel at all levels are   part of the compliance program. The
professionals that could violate            critical elements of an effective           company should retain adequate records
kickback prohibitions or other federal      compliance program. A pharmaceutical        of its training of employees, including
health care programs requirements.          manufacturer must take steps to             attendance logs, descriptions of the
Where appropriate, the compliance           communicate effectively its standards       training sessions, and copies of the
officer should seek the advice of           and procedures to all affected personnel    material distributed at training sessions.
competent legal counsel about these         by requiring participation in appropriate      The OIG suggests that all relevant
matters.                                    training programs and by other means,       personnel (i.e., employees as well as
                                            such as disseminating publications that     agents of the pharmaceutical
2. Compliance Committee                     explain specific requirements in a          manufacturer) participate in the various
   The OIG recommends that a                practical manner. These training            educational and training programs of
compliance committee be established to      programs should include general             the company. For example, for sales
advise the compliance officer and assist    sessions summarizing the                    representatives who are responsible for
in the implementation of the                manufacturer’s compliance program,          the sale and marketing of the company’s
compliance program.17 When                  written standards, and applicable           products, periodic training in the anti-
developing an appropriate team of           federal health care program                 kickback statute and its safe harbors
people to serve as the pharmaceutical       requirements. All employees and, where      should be required. Employees should
manufacturer’s compliance committee,        feasible and appropriate, contractors       be required to have a minimum number
the company should consider a variety       should receive the general training.        of educational hours per year, as
of skills and personality traits that are   More specific training on issues, such as   appropriate, as part of their employment
expected from the team members. The         (i) the anti-kickback statute and how it    responsibilities.
                          Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices                               23741

   The OIG recognizes that the format of     if appropriate, shared with other staff so   the individual’s identity may become
the training program will vary               that compliance standards or polices         known or need to be revealed in certain
depending upon the size and resources        can be updated and improved to reflect       instances. The OIG recognizes that
of the pharmaceutical manufacturer. For      any necessary changes or clarifications.     protecting anonymity may be infeasible
example, a company with limited              Pharmaceutical manufacturers may also        for small companies. However, the OIG
resources or whose sales force is widely     consider rewarding employees for             believes all employees, when seeking
dispersed may want to create a               appropriate use of established reporting     answers to questions or reporting
videotape or computer-based program          systems as a way to encourage the use        potential instances of fraud and abuse,
for each type of training session so new     of such systems.                             should know to whom to turn for a
employees and employees outside of                                                        meaningful response and should be able
                                             2. Hotlines and Other Forms of
central locations can receive training in                                                 to do so without fear of retribution.
                                             Communication
a timely manner. If videos or computer-                                                   F. Auditing and Monitoring
based programs are used for compliance          The OIG encourages the use of
training, the OIG suggests that the          hotlines, e-mails, newsletters,                 An effective compliance program
company make a qualified individual          suggestion boxes, and other forms of         should incorporate thorough monitoring
available to field questions from            information exchange to maintain open        of its implementation and an ongoing
trainees. Also, large pharmaceutical         lines of communication. In addition, an      evaluation process. The compliance
manufacturers may find training via the      effective employee exit interview            officer should document this ongoing
Internet or video conference capabilities    program could be designed to solicit         monitoring, including reports of
to be a cost-effective means of reaching     information from departing employees         suspected noncompliance, and provide
a large number of employees.                 regarding potential misconduct and           these assessments to company’s senior
Alternatively, large companies may           suspected violations of company policy       management and the compliance
include training sessions as part of         and procedures. Pharmaceutical               committee. The extent and frequency of
regularly scheduled regional meetings.       manufacturers may also identify areas of     the compliance audits may vary
   The OIG recommends that                   risk or concern through periodic surveys     depending on variables such as the
participation in training programs be        or communications with sales                 pharmaceutical manufacturer’s available
made a condition of continued                representatives about the current            resources, prior history of
employment and that failure to comply        marketing environment. This could            noncompliance, and the risk factors
with training requirements should result     provide management with insight about        particular to the company. The nature of
in disciplinary action. Adherence to the     and an opportunity to address conduct        the reviews may also vary and could
training requirements as well as other       occurring in the field, either by the        include a prospective systemic review
provisions of the compliance program         company’s own sale representatives or        of the manufacturer’s processes,
should be a factor in the annual             those of other companies.                    protocols, and practices or a
                                                If a pharmaceutical manufacturer          retrospective review of actual practices
evaluation of each employee.
                                             establishes a hotline or other reporting     in a particular area.
E. Developing Effective Lines of             mechanism, information regarding how            Although many assessment
Communication                                to access the reporting mechanism            techniques are available, it is often
                                             should be made readily available to all      effective to have internal or external
1. Access to Supervisors and/or the
                                             employees and independent contractors        evaluators who have relevant expertise
Compliance Officer                           by including that information in the         perform regular compliance reviews.
   In order for a compliance program to      code of conduct or by circulating the        The reviews should focus on those
work, employees must be able to ask          information (e.g., by publishing the         divisions or departments of the
questions and report problems.               hotline number or e-mail address on          pharmaceutical manufacturer that have
Supervisors play a key role in               wallet cards) or conspicuously posting       substantive involvement with or impact
responding to employee concerns and it       the information in common work areas.        on federal health care programs (such as
is appropriate that they serve as a first    Employees should be permitted to             the government contracts and sales and
line of communications. Pharmaceutical       report matters on an anonymous basis.        marketing divisions) and on the risk
manufacturers should consider the               Reported matters that suggest             areas identified in this guidance. The
adoption of open-door policies in order      substantial violations of compliance         reviews should also evaluate the
to foster dialogue between management        policies or applicable Federal health        company’s policies and procedures
and employees. In order to encourage         care program requirements should be          regarding other areas of concern
communications, confidentiality and          documented and investigated promptly         identified by the OIG (e.g., through
non-retaliation policies should also be      to determine their veracity and the          Special Fraud Alerts) and federal and
developed and distributed to all             scope and cause of any underlying            state law enforcement agencies.
employees.18                                 problem. The compliance officer should       Specifically, the reviews should
   Open lines of communication               maintain a detailed log that records         evaluate whether the: (1)
between the compliance officer and           such reports, including the nature of        Pharmaceutical manufacturer has
employees are equally important to the       any investigation, its results, and any      policies covering the identified risk
successful implementation of a               remedial or disciplinary action taken.       areas; (2) policies were implemented
compliance program and the reduction         Such information, redacted of                and communicated; and (3) policies
of any potential for fraud and abuse. In     individual identifiers, should be            were followed.
addition to serving as a contact point for   summarized and included in reports to
reporting problems and initiating            the board of directors, the president or     G. Enforcing Standards Through Well-
appropriate responsive action, the           CEO, and compliance committee.               Publicized Disciplinary Guidelines
compliance officer should be viewed as       Although the pharmaceutical                    An effective compliance program
someone to whom personnel can go to          manufacturer should always strive to         should include clear and specific
get clarification on the company’s           maintain the confidentiality of an           disciplinary policies that set out the
policies. Questions and responses            employee’s identity, it should also make     consequences of violating the law or the
should be documented and dated and,          clear that there might be a point where      pharmaceutical manufacturer’s code of
23742                     Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices

conduct or policies and procedures. A        evidence of a violation.22 Prompt            7b(f), includes any plan or program that
pharmaceutical manufacturer should           voluntary reporting will demonstrate         provides health benefits, whether directly,
consistently undertake appropriate           the pharmaceutical manufacturer’s good       through insurance, or otherwise, which is
disciplinary action across the company       faith and willingness to work with           funded directly, in whole or in part, by the
                                                                                          United States government or any state health
in order for the disciplinary policy to      governmental authorities to correct and      plan (e.g., Medicaid or a program receiving
have the required deterrent effect.          remedy the problem. In addition,             funds from block grants for social services or
Intentional and material noncompliance       reporting such conduct will be               child health services). In this document, the
should subject transgressors to              considered a mitigating factor by the        term ‘‘federal health care program
significant sanctions. Such sanctions        OIG in determining administrative            requirements’’ refers to the statutes,
could range from oral warnings to            sanctions (e.g., penalties, assessments,     regulations and other rules governing
suspension, termination or other             and exclusion), if the reporting             Medicare, Medicaid, and all other federal
sanctions, as appropriate. Disciplinary      company becomes the subject of an OIG        health care programs.
                                                                                             2. See 66 FR 31246 (June 11, 2001), ‘‘Notice
action also may be appropriate where a       investigation.23
                                                                                          for Solicitation of Information and
responsible employee’s failure to detect        When reporting to the government, a
                                                                                          Recommendations for Developing a
a violation is attributable to his or her    pharmaceutical manufacturer should           Compliance Program Guidance for the
negligence or reckless conduct. Each         provide all information relevant to the      Pharmaceutical Industry.’’
situation must be considered on a case-      alleged violation of applicable federal or      3. See 67 FR 62057 (October 3, 2002),
by-case basis, taking into account all       state law(s) and the potential financial     ‘‘Draft OIG Compliance Program Guidance
relevant factors, to determine the           or other impact of the alleged violation.    for Pharmaceutical Manufacturers.’’
appropriate response.                        The compliance officer, under advice of         4. 42 U.S.C. 1320a–7b(b).
                                             counsel and with guidance from the              5. In addition, the compliance program
H. Responding to Detected Problems           governmental authorities, could be           elements and potential risk areas addressed
and Developing Corrective Action             requested to continue to investigate the     in this compliance program guidance may
Initiatives                                  reported violation. Once the
                                                                                          also have application to manufacturers of
                                                                                          other products that may be reimbursed by
   Violation of a pharmaceutical             investigation is completed, and              federal health care programs, such as medical
manufacturer’s compliance program,           especially if the investigation ultimately   devices and infant nutritional products.
failure to comply with applicable            reveals that criminal, civil or                 6. In addition, pharmaceutical
federal or state law, and other types of     administrative violations have occurred,     manufacturers should be mindful that many
misconduct threaten the company’s            the compliance officer should notify the     states have fraud and abuse statutes—
status as a reliable, honest, and            appropriate governmental authority of        including false claims, anti-kickback and
trustworthy participant in the health        the outcome of the investigation,            other statutes—that are not addressed in this
care industry. Detected but uncorrected      including a description of the impact of     guidance.
misconduct can endanger the reputation                                                       7. The False Claims Act (31 U.S.C. 3729–
                                             the alleged violation on the operation of
                                                                                          33) prohibits knowingly presenting (or
and legal status of the company.             the applicable federal health care           causing to be presented) to the federal
Consequently, upon receipt of                programs or their beneficiaries.             government a false or fraudulent claim for
reasonable indications of suspected                                                       payment or approval. Additionally, it
noncompliance, it is important that the      III. Conclusion
                                                                                          prohibits knowingly making or using (or
compliance officer or other management          In today’s environment of increased       causing to be made or used) a false record or
officials immediately investigate the        scrutiny of corporate conduct and            statement to get a false or fraudulent claim
allegations to determine whether a           increasingly large expenditures for          paid or approved by the federal government
material violation of applicable law or      prescription drugs, it is imperative for     or its agents, like a carrier, other claims
the requirements of the compliance           pharmaceutical manufacturers to              processor, or state Medicaid program.
program has occurred and, if so, take        establish and maintain effective                8. The 340B Program, contained as part of
                                             compliance programs. These programs          the Public Health Services Act and codified
decisive steps to correct the problem.19
                                                                                          at 42 U.S.C. 256b, is administered by the
The exact nature and level of                should foster a culture of compliance
                                                                                          Health Resources and Services
thoroughness of the investigation will       that begins at the executive level and       Administration (HRSA).
vary according to the circumstances, but     permeates throughout the organization.          9. 42 U.S.C. 1396r–8. Average
the review should be detailed enough to      This compliance guidance is designed         Manufacturer Price and Best Price are
identify the root cause of the problem.      to provide assistance to all                 defined in the statute at 42 U.S.C. 1396r–
As appropriate, the investigation may        pharmaceutical manufacturers as they         8(k)(1) and 1396r–8(c)(1), respectively. CMS
include a corrective action plan, a report   either implement compliance programs         has provided further guidance on these terms
and repayment to the government, and/        or re-assess existing programs. The          in the National Drug Rebate Agreement and
or a referral to criminal and/or civil law   essential elements outlined in this          in Medicaid Program Releases available
                                                                                          through its Web site at http://www.hcfa.gov/
enforcement authorities.                     compliance guidance can be adapted to
                                                                                          medicaid/drugs/drug.mpg.htm.
                                             the unique environment of each                  10. In this regard, pharmaceutical
Reporting                                    manufacturer. It is the hope and             manufacturers should note that the exception
  Where the compliance officer,              expectation of the OIG that the resulting    for non-monetary compensation under the
compliance committee, or a member of         compliance programs will benefit not         Stark law (42 U.S.C. 1395nn; 42 CFR
senior management discovers credible         only federal health care programs and        411.357(k)) is not a basis for protection under
evidence of misconduct from any source       their beneficiaries, but also                the anti-kickback statute.
and, after a reasonable inquiry, believes    pharmaceutical manufacturers                    11. CME programs with no industry
that the misconduct may violate              themselves.                                  sponsorship, financing, or affiliation should
criminal, civil, or administrative law,                                                   not raise anti-kickback concerns, although
                                               Dated: April 23, 2003.                     tuition payments by manufacturers (or their
the company should promptly report
                                             Janet Rehnquist,                             representatives) for persons in a position to
the existence of misconduct to the                                                        influence referrals (e.g., physicians or
                                             Inspector General.
appropriate federal and state                                                             medical students) may raise concerns.
authorities20 within a reasonable period,    Endnotes                                        12. It is also advisable to designate as a
but not more than 60 days,21 after             1. The term ‘‘Federal health care          compliance officer an individual with prior
determining that there is credible           programs,’’ as defined in 42 U.S.C. 1320a–   experience or knowledge of compliance and
                              Federal Register / Vol. 68, No. 86 / Monday, May 5, 2003 / Notices                                         23743

operational issues relevant to pharmaceutical      existence or amount of a monetary loss to a         documents, call the SAMHSA Reports
manufacturers.                                     federal health care program is not solely           Clearance Officer on (301) 443–7978.
   13. The OIG believes it is generally not        determinative of whether the conduct should            National Evaluation of the
advisable for the compliance function to be        be investigated and reported to governmental        Comprehensive Community Mental
subordinate to the pharmaceutical                  authorities. In fact, there may be instances
manufacturer’s general counsel, or                 where there is no readily identifiable
                                                                                                       Health Services for Children and Their
comptroller or similar financial officer.          monetary loss, but corrective actions are still     Families Program: Phase Three—(OMB
Separation of the compliance function helps        necessary to protect the integrity of the           No. 0930–0209, revision)—SAMHSA’s
to ensure independent and objective legal          health care program.                                Center for Mental Health Services is
reviews and financial analysis of the                 20. Appropriate federal and state                conducting Phase III of the national
company’s compliance efforts and activities.       authorities include the OIG, the Criminal and       evaluation of the Comprehensive
By separating the compliance function from         Civil Divisions of the Department of Justice,       Community Mental Health Services for
the key management positions of general            the U.S. Attorney in relevant districts, the        Children and Their Families Program.
counsel or chief financial officer (where the      Food and Drug Administration, the Federal
size and structure of the pharmaceutical           Trade Commission, the Drug Enforcement
                                                                                                       Phase III collects data on child mental
manufacturer make this a feasible option), a       Administration and the Federal Bureau of            health outcomes, family life, and service
system of checks and balances is established       Investigation, and the other investigative          system development and performance.
to more effectively achieve the goals of the       arms for the agencies administering the             Data are being collected on 22 funded
compliance program.                                affected federal or state health care programs,     systems of care, and approximately
   14. For companies with multiple divisions       such as the state Medicaid Fraud Control            5,100 children and families. Data
or regional offices, the OIG encourages            Unit, the Defense Criminal Investigative            collection for this evaluation will be
coordination with each company location            Service, the Department of Veterans Affairs,        conducted over a 51⁄2-year period.
through the use of a compliance officer            HRSA, and the Office of Personnel                      The core of service system data are
located in corporate headquarters who is able      Management (which administers the Federal
to communicate with parallel compliance            Employee Health Benefits Program).                  currently collected every 18 months
liaisons in each division or regional office, as      21. In contrast, to qualify for the ‘‘not less   throughout the evaluation period.
appropriate.                                       than double damages’’ provision of the False        Service delivery and system variables of
   15. As part of its commitment to                Claims Act, the provider must provide the           interest include the following: Maturity
compliance, a pharmaceutical manufacturer          report to the government within 30 days after       of system of care development,
should carefully consider whether to hire or       the date when the provider first obtained the       adherence to the system of care program
do business with individuals or entities that      information. 31 U.S.C. 3729(a).                     model, and client service experience.
have been sanctioned by the OIG. The List of          22. Some violations may be so serious that       The length of time that individual
Excluded Individuals and Entities can be           they warrant immediate notification to
checked electronically and is accessible           governmental authorities prior to, or
                                                                                                       families will participate in the study
through the OIG’s Web site at: http://             simultaneous with, commencing an internal           ranges from 18 to 36 months depending
oig.hhs.gov.                                       investigation. By way of example, the OIG           on when they enter the evaluation.
   16. There are many approaches the               believes a provider should report misconduct           Child and family outcomes of interest
compliance officer may enlist to maintain the      that: (1) Is a clear violation of administrative,   will be collected at intake and during
vitality of the compliance program. Periodic       civil, or criminal laws; (2) has a significant      subsequent follow-up sessions at six-
on-site visits of regional operations, bulletins   adverse effect on the quality of care provided      month intervals. The outcome measures
with compliance updates and reminders,             to federal health care program beneficiaries;       include the following: Child
distribution of audiotapes, videotapes, CD         or (3) indicates evidence of a systemic failure     symptomatology and functioning,
ROMs, or computer notifications about              to comply with applicable laws or an existing
different risk areas, lectures at management
                                                                                                       family functioning, material resources,
                                                   corporate integrity agreement, regardless of
and employee meetings, and circulation of          the financial impact on federal health care         and caregiver strain. In addition, a
recent articles or publications discussing         programs.                                           treatment effectiveness study will
fraud and abuse are some examples of                  23. The OIG has published criteria setting       examine the relative impact of an
approaches the compliance officer may              forth those factors that the OIG takes into         evidence-based treatment within one
employ.                                            consideration in determining whether it is          system of care.
   17. The compliance committee benefits           appropriate to exclude an individual or                The average annual respondent
from having the perspectives of individuals        entity from program participation pursuant to       burden is estimated below. The estimate
with varying responsibilities and areas of         42 U.S.C. 1320a–7(b)(7) for violations of           reflects the average number of
knowledge in the organization, such as             various fraud and abuse laws. See 62 FR             respondents in each respondent
operations, finance, audit, human resources,       67392 (December 24, 1997).
legal, and sales and marketing, as well as                                                             category, the average number of
employees and managers of key operating            [FR Doc. 03–10949 Filed 5–2–03; 8:45 am]            responses per respondent per year, the
units. The compliance officer should be an         BILLING CODE 4152–01–P                              average length of time it will take for
integral member of the committee. All                                                                  each response, and the total average
committee members should have the                                                                      annual burden for each category of
requisite seniority and comprehensive              DEPARTMENT OF HEALTH AND                            respondent, and for all categories of
experience within their respective                 HUMAN SERVICES                                      respondents combined.
departments to recommend and implement                                                                    This revision to the currently
any necessary changes to policies and              Substance Abuse and Mental Health
procedures.
                                                                                                       approved information collection
                                                   Services Administration                             activities involves: (1) Extension of the
   18. In some cases, employees sue their
employers under the False Claims Act’s qui                                                             data collection period for an additional
                                                   Agency Information Collection
tam provisions after a failure or apparent                                                             18 months to cover an additional sixth
                                                   Activities: Submission for OMB
failure by the company to take action when                                                             year of grant funding in the 22 currently
the employee brought a questionable,
                                                   Review; Comment Request
                                                                                                       funded systems of care (and a six-month
fraudulent, or abusive situation to the              Periodically, the Substance Abuse and             no-cost extension for the evaluation), (2)
attention of senior corporate officials.           Mental Health Services Administration               the addition of a family-driven study to
Whistleblowers must be protected against
retaliation, a concept embodied in the
                                                   (SAMHSA) will publish a summary of                  assess the extent of family involvement
provisions of the False Claims Act. See 31         information collection requests under               in service planning, (3) the elimination
U.S.C. 3730(h).                                    OMB review, in compliance with the                  of the longitudinal comparison study
   19. Instances of noncompliance must be          Paperwork Reduction Act (44 U.S.C.                  and the addition of a treatment
determined on a case-by-case basis. The            Chapter 35). To request a copy of these             effectiveness study in two sites
